No.
IN THE SUPREME COURT OF THE UNITED STATES

OCTOBER TERM, 2020

PEDRO CARRASCO, Jr., aka,
Pedro Carrasco, PETITIONER,
vs.

UNITED STATES OF AMERICA,
RESPONDENT.

Proof of Service
Stephen R. Hormel, declares as follows:

That I am admitted to practice before this Court. On November 10, 2020, the Petition for

Writ of Certiorari in the above-entitled matter was sent by United States mail to the Clerk of the

Supreme Court of United States for filing said Petition; an additional copy of the petition was

serviced on counsel for Respondent by placing the same in the United States mail to:

The Honorable Jeff Wall

Solicitor General of the United States
Department of Justice

950 Pennsylvania Ave., N.W., Room 5143
Washington D.C. 20530

I declare under the penalty of the United States of America, the foregoing is true and

 
 
 

Executed on November 10, 2020, at Spokane Valley, WA.

 

Stephen R. Hormel,
Attorney for Carrasco

1
